BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in Pfizer, Inc. And Greenstone LLC v.
Superior Court of California for the County of Los
Angeles, et al., were sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service and e-mail to the following parties listed
below, this 28th day of August, 2019:
Charles G. Orr
THE MULLIGAN LAW FIRM
3710 Rawlins St., Suite 901
Dallas, TX 75219
(214) 218-9779
corr@m ulliganlaw .com
Bill Robins, III
ROBINS CLOUD LLP
808 Wilshire Boulevard, Suite 450
Santa Monica, CA 90401
(310) 929-4200
robins@robinscloud.com
Counsel for Respondents
Real Parties in Interest, Plaintiffs in Lipitor Cases

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I
I

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A.

KERSHNER, J.D.

Joseph Lane Clerk/Executive Officer of the Court
Court of Appeal, Second Appellate District
300 South Sprint Street
Second Floor, North Tower
Los Angeles, CA 90013
Hon. Carolyn N. Kuhl
Los Angeles County Superior Court
Spring Street Courthouse
312 North Spring Street
Department 012
Los Angeles, CA 90012
(213) 310-7012
Frederick Bennett III
Los Angeles County Superior Court
111 N Hill St., #546
Los Angeles, CA 90012

Michael H. McGinley
Counsel of Record
DECHERTLLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
Michael.McGinley@dechert.com
Sheila L. Birnbaum
Mark S. Cheffo
Rachel B. Passaretti-Wu
Lincoln Davis Wilson
DECHERTLLP
Three Bryant Park
1095 Sixth Avenue
New York, NY 10036
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 28, 2019.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Pu~
[seal]

JULIE ANNE KERSHNEJ,
Notary Public, State of Ohi~
My Commission Expires
February 21 , 2023

